Executive Report



Return to the USDOJ/OIG Home Page



Office of Justice ProgramsService, Training, Officers, and Prosecution Grant to the
Confederated Tribes of the Chugachmiut Indian Reservation
GR-90-00-011March 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 96-WI-NX-0004, awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), to the Chugachmiut.  The purpose of the Services, Training, Officers, and Prosecution (STOP) formula grant program is to develop or enhance tribal structure in order to combat violent crimes committed against Indian women.

The Chugachmiut received two grants:  the first was awarded in September 1996 in the amount of $84,000; the second was awarded in June 1998, in the amount of $88,775.  The grants were awarded to the tribal organization Chugachmiut to develop Sexual Assault Response Teams in regional communities and to provide education and training on the prevention of violence against Indian women.  The grant project period was September 30, 1996 through September 30, 1999. 

Our audit concentrated on, but was not limited to, the period from September 1996 through August 1999.  We tested the accuracy and reliability of the Chugachmiut accounting system, reviewed the general ledger, and evaluated the allowability, allocability and reasonableness of costs.

In brief, our audit determined the Chugachmiut did not comply with the following grant conditions:


We found unallowable costs totaling $14,601.
	The Chugachmiut generally were not in compliance with grant financial report requirements.  

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.